       AUDIT OF THE U.S.
  DEPARTMENT OF EDUCATION=S
    CLOSED SCHOOL PROCESS

                                   FINAL AUDIT REPORT
                                            NOTICE
         Statements that financial and\or managerial practices need improvement or
         recommendations that costs questioned be refunded or unsupported costs be adequately
         supported, and recommendations for the better use of funds, as well as other conclusions
         and recommendations in this report, represent the opinions of the Office of Inspector
         General. Determinations on these matters will be made by the appropriate U.S.
         Department of Education officials.




                           AUDIT CONTROL NUMBER: A03-70010
                                      June 1999


Our mission is to promote the efficient                              U.S. Department of Education
and effective use of taxpayer dollars                      Office of Inspector General
in support of American education.                                    Philadelphia, PA
                                     TABLE OF CONTENTS




EXECUTIVE SUMMARY. ............................................................................ . . . . . . . . . . . . 1


AUDIT RESULTS .......................................................................................... . . . . . . . . . . . . 3


     FINDING NO. 1 - ALL CLOSE OUT AUDIT REPORTS ARE NOT BEING
     SUBMITTED AND THE RELATED RECEIVABLES ARE NOT BEING
     ESTABLISHED......................................................................................... . . . . . . . . . . . . 3

     FINDING NO. 2 - THE SECURING OF FEDERAL PERKINS LOAN
     PROGRAM PROMISSORY NOTES AND FUNDS FROM CLOSED
     SCHOOLS NEEDS IMPROVEMENT ...................................................... . . . . . . . . . . . . 8


OTHER MATTERS ........................................................................................ . . . . . . . . . . . 11


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
13


AUDIT SCOPE AND METHODOLOGY ....................................................... . . . . . . . . . . . 14


STATEMENT ON MANAGEMENT CONTROLS......................................... . . . . . . . . . . . 15




ATTACHMENT
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                  Page 1




                       ~ EXECUTIVE SUMMARY ~



We reviewed the U. S. Department of Education=s (ED) closed school process [which is to assure
the accountability of the federal funds, and to assist students in completing their education] for
when a school ceases to provide educational instruction. (See the Attachment for a flowchart of
ED=s closed school process) We determined that monetary liabilities owed to ED were not being
accounted for and pursued. During our audit, ED developed and implemented new closed school
policies and procedures. We found these policies and procedures to be adequate, however, we
believe that additional procedures need to be included to assist in strengthening the closed school
process.

We believe that action on the recommendations included in this report could further strengthen
ED=s closure process, and that immediate attention to these issues is warranted.

Specifically, our review disclosed that:

‚   All Close Out Audit Reports are not Being Submitted and the Related
    Receivables are not Being Established; and

‚   The Securing of Federal Perkins Loan Program Promissory Notes and Funds
    from Closed Schools Need Improvement.

We determined that at least:

‚   $36,987,465 in federal funds, was received by 30 schools that did not submit the required
    close out audit report and has not been accounted for. Of this amount, receivables were not
    established for $23,523,432. This amount represents federal funds received by 24 of the 25
    schools we selected for review in this area. A receivable should have been established, since
    funds not properly accounted for are owed to ED.

‚   $535,000 in Perkins Loan program funds are at risk because the Case Management Teams did
    not obtain the Perkins Loan promissory notes from seven of the nine schools we reviewed.
    Also, cash on hand, from the closed school=s Perkins Loan account, was not obtained from
    any of the nine schools.

RECOMMENDATIONS:
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                    Page 2


We recommend the Chief Operating Officer for Student Financial Assistance programs take the
appropriate actions to ensure:

   (1) Receivables are established for all schools that have closed and failed to submit a close out
       audit report;

   (2) Close out audit procedures are implemented, in a timely manner to ensure that the
       procedures delineate the office and staff responsible for assessing liabilities and
       establishing receivables;

   (3) School owners with at least 25% ownership interest are required to provide their social
       security numbers when applying to participate in the SFA programs.

   (4) Periodic searches of the Postsecondary Education Participants System is performed to
       determine if the owner(s) of a closed school have ownership interest in any other school(s)
       that are still participating in the SFA programs.

   (5) Perkins Loan promissory notes are obtained for all schools that closed and did not assign
       their Perkins Loan notes to ED, including the seven schools noted in our review, and
       attempt to obtain any cash remaining in the school=s Perkins Loan account;

   (6) Additional policies and procedures are developed and implemented that establish
       timeframes and assign responsibility for the process by which closed schools Perkins Loan
       promissory notes are obtained by ED; and

   (7) The current closed school procedures are amended to include the measures that we are
       suggesting in the Other Matters section of this report.


OSFA RESPONSE:

The OSFA generally concurred with our recommendations. However, OSFA believes that the
current closed school policies and procedure relating to the Perkins Loan program is adequate to
address the Case Management Teams obtaining of Perkins loan promissory notes and cash on
hand. OSFA is also exploring the best way to handle requiring school owners to provide their
social security numbers when applying to participate in the SFA programs.


Our findings and recommendations did not substantially change from the draft report.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                     Page 3




                                     A U D I T R ESU LTS




We believe that the Institutional Participation and Oversight Service (IPOS) has made significant
progress in developing and implementing guidance to staff assigned the responsibility for closed
schools. ED has also formed partnerships with State agencies, accrediting agencies, and guaranty
agencies in order to effect communication and strengthen its oversight of matters related to school
closures. However, we found that during our audit period, IPOS did not have updated closed
school policies and procedures. We did not assess the adequacy of the policies and procedures
used during the audit period because during our audit IPOS developed new closed school policies
and procedures. The new policies and procedures appear adequate and we believe they will result
in improvements, however, we believe that additional procedures need to be included to assist in
strengthening the closed school process, as discussed in the Other Matters section of this report.
Generally, IPOS was implementing the closed school policies and procedures that they were
following during our audit period, except as explained in this report.




FINDING NO. 1 - ALL CLOSE OUT AUDIT REPORTS
                ARE NOT BEING SUBMITTED AND
                THE RELATED RECEIVABLES ARE
                NOT BEING ESTABLISHED

Our review disclosed that the majority of the required close out audit reports are not being
submitted, and receivables for failure to submit the audits are not being established by ED for the
unaudited and unaccounted for funds. As a result, federal funds possibly owed to ED are not
being properly identified for follow-up and collection, and school owners are not being held
accountable for not submitting close out audit reports.

34 CFR 668.26 (b) requires that when a school closes, the school is required to submit to ED an
audit engagement letter. The engagement letter is to show that the school has contracted to have
an independent audit of the SFA programs in which they participated performed covering the
period of time from their last audit until the date of closure. The audit report [close out audit] is
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                       Page 4

required to be submitted to ED within 45 days after the date of the engagement letter. If the date
to submit the engagement letter expired, ED requires that the school submit the close out audit
within 45 days from the date of the close out letter sent to the school by the Case Management
Teams (CMT) [See the Background section of this report for additional information]. In the
absence of a close out audit, the associated federal funds remain unaccounted for. Therefore,
when a school does not submit the close out audit, it is ED=s policy to assess a liability equal to
the amount of SFA funds received by the institution during the unaudited period of time. The
school is to be notified of the liability by a Final Audit Determination letter (FAD). The liability is
forwarded to the Office of the Chief Financial Officer (OCFO) to be established as a receivable
owed by the school for collection purposes.


CLOSE OUT AUDIT REPORTS:

During the period July 1, 1996 to July 31, 1997, we found that only 18% [34] of the 193 main
campus locations in our audit universe, which were required to submit a close out audit report,
appear to have submitted a close out audit. Based on our sample of 381 closed schools, we
found that as of April 1998, $36,987,4652 in federal funds are unaudited and thus not accounted
for.

Noncompliance with the close out audit requirement was previously reported as a finding by our

       1
               Three schools were excluded from our sample of 41, because they were private not-for-
               profit schools with SFA funding of less than $300,000. These schools are not required to
               submit a close out audit.
       2
               This amount represents unaudited SFA funding received for 30 of 38 schools reviewed,
               that were required to submit a close out audit report. This amount includes the $23.5
               million discussed later in the Finding. The $23.5 million represents unaudited SFA
               funding received [for 24 schools], and no close out audit report was submitted and we
               determined that a receivable for the liability was not established.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                 Page 5

office in September 19953. The report disclosed that 92% of the 530 schools that closed during
the period January 1, 1989 through September 30, 1993 did not submit a close out audit. The
amount of funds that went unaudited was approximately $2.4 billion. Four years later, 82% of the
required audit reports are still not being submitted. There has only been a 10% increase in report
submissions.

IPOS should have implemented appropriate corrective action to address the prior audit findings,
such as establishing procedures to monitor compliance with the close out audit report
requirement, assessing liabilities against schools that do not provide the close out audits and
clarifying the roles of the various offices. However, due to the reorganization of IPOS, and the
lack of updated closed school policies and procedures [See the AOther Matters@ section of this
report], effective corrective actions were not being accomplished.

Without the close out audit, ED does not know if the funds provided to the schools were
expended properly. Although there is a federal requirement that a school that closes is to have a
close out audit performed and must submit the audit to ED, there is no real compelling reason for
the school owners to have the audits performed. IPOS is not enforcing the close out audit report
submission requirement.


RECEIVABLES:




       3
               Closed Schools: $2.4 Billion Unaudited - ACN: 07-48051.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                    Page 6

Our review also disclosed that, as of May 1998, 10 months after the end of our audit period ,
receivables were not being established for schools that did not submit their required close out
audit. We selected a sample of 254 schools that did not submit close out audits, to determine if a
receivable was established. We found that a receivable was not established for 24 [96%] of the
schools. IPOS had not issued Final Audit Determination letters FADs)
                                                                 (      for these schools. As a
result, $23,523,432 in amounts possibly owed to EDare not being pursued for collection.

Under IPOS=s new organizational structure, formal assignment of the responsibility for assessing
liabilities and requesting that a receivable be established had not been delineated. Our review
disclosed that IPOS did not have written closed school policies and procedures to correspond to
the new IPOS structure. Formerly, under the old structure, the responsibility for requesting that a
liability be established as a receivable was that of the Division of Audit and Program Review
(DAPR). The DAPR no longer exists under the new structure. TheCMTs assumed this function,
although most were not sure who was actually responsible for performing this function. One
CMT=s own procedures stated that:

   S       A ...it is the former Audit ResolutionBranch=s [part of the DAPR] responsibility
           to..assess liabilities for all unaudited funds..., however, with the reorganization of
           IPOS, it=s reasonable to believe that it will be the case managementdivision=s
           responsibility to monitor and issue the Final Audit Determination letter... @.

We believe that factors contributing to the receivables not being established are the lack of
sufficient close out audit procedures, that should detail the process of assessing liabilities and
establishing receivables. The close out audit report processing is an integral part of the closed
school process. As of October 1998, IPOS had not yet developed new procedures that apply to
the new structure. An additional factor was the closed school audits were not made a priority for
the CMTs.

IPOS officials indicated to us that there was no point in setting up a receivable forunaudited
funds, because when a school closes, generally the owner of the school can not be located   to
obtain the close out audit report or enforce collection. We acknowledge the problem ED faces,
however, if a debt is owed to ED it should be pursued and the Congress has passed additional
laws to strengthen collection. Title 31 Money and Finance, as amended by Section 31001 of
Public Law 104-134 the Debt Collection Improvement Act of 1996, requires that each person
doing business with the Department, with respect to the student loan programs, isrequired to
furnish a taxpayer identification number. ADoing business with@ is defined as being in a
relationship with the agency that may give rise to a receivable due to that agency, such as a
partner of a borrower in or a guarantor of a Federal Direct or insured loan administered by the
       4
               Two schools that filed for bankruptcy were excluded from the sample.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                      Page 7

agency. Title 31 ' 7701(c)(1) states that: AThe head of each Federal agencyshall require
[emphasis added] each person doing business with that agency to furnish to that agency such
person=s taxpayer identifying number@, which can be a social security number (SSN). Although
ED currently requests SSNs (on an optional basis), providing them is not required. Based on Title
31 ' 7701, ED should require the SSN of school owners participating in or who want to
participate in the SFA programs.

We also recognize that owners can cease operation of one school and continue to operate another
school while ED carries a receivable for failure to submit the close out audit. IPOS should
perform a search of the Postsecondary Education Participants System (PEPS) to identify for
administrative action, owners of closed schools that failed to submit close out audits and who
continue to operate or have ownership interest in another school currently participating in the
SFA programs. The operating school can be considered to be not financially responsible based on
34 CFR 668.15(c) Past performance of an institution or persons affiliated with an institution,
which states that:

       AAn institution is not financially responsible if- a person who exercises substantial control
       over the institution...exercises or exercised substantial control over another institution or
       third party servicer that owes a liability for a violation of a Title IV, HEA program
       requirement; or owes a liability for a violation of a Title IV, HEA program requirement;
                                                                                                     @.
       and that person, ... institution ... does not demonstrate that the liability is being repaid ...


We believe requiring the SSN and implementing a search of PEPS will strengthenIPOS=s ability
to obtain compliance with closed school requirements.


RECOMMENDATION:

The Chief Operating Officer for SFA should require IPOS to:

   <       (1) Determine all closed schools that failed to submit the close out audit report and
           establish a receivable for these schools.

   <       (2) Finalize the close out audit policies and procedures, and ensure that the procedures
           delineates who is responsible for assuring close out audits are submitted, issuing
           FADs, and notifying the OCFO to establish a receivable.

   <       (3) Require all school owners with at least 25% ownership interest to provide their
           social security numbers when applying to participate in the SFA programs.

   <       (4) Perform periodic searches of PEPS to determine if the owner(s) of a closed school
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                   Page 8

           have ownership interest in any other school(s)that are still participating in the SFA
           programs.


OSFA RESPONSE:

Recommendation 1 - Case Teams have been instructed to establish liabilities for closed schools
that failed to submit audits.

Recommendation 2 - Procedures are being established that answer key questions in the tracking
process. Area Case Directors (ACDs) will be responsible for ensuring that close out audits are
submitted for schools under their jurisdiction. This will include issuing the final determination if
the close out audit is not received, with the liability assessment. A copy of the final determination
letter for failure to submit a close out audit will then be forwarded to the Financial Improvement
and Debt Management Group in the OCFO to establish an account receivable. Case teams will be
responsible for tracking the receipt of close out audit reports.

Recommendation 3 - We are exploring how best to require school owners with at least 25%
ownership interest to provide social security numbers when applying to participate in SFA
programs. We hope to add this requirement to the application when it is revised this summer. A
major problem is the Postsecondary Education ParticipantsSystems= (PEPS) inability to provide
the required security necessary for maintaining social security numbers. An alternative may be to
require that owners= social security numbers be included in the compliance audit or financial
statement because they are submitted on an annual basis.

Recommendation 4 - We agree with this recommendation. We will also revisit coordination
between OCFO and IPOS to ensure OCFO notifies IPOS when liabilities are not paid.


OIG RESPONSE:

Recommendation 3 - We do not believe that requiring owners to provide social security numbers
in a compliance or financial statement audit report is a viable alternative. An audit report is not a
good vehicle to obtain the SSN, as it can be obtained through the Freedom of Information Act
and the owner SSN would not be secure. Also, if no audit report is submitted then you will still
not have the owner SSN.




FINDING NO. 2 - THE SECURING OF FEDERAL
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                     Page 9


                              PERKINS LOAN PROGRAM
                              PROMISSORY NOTES AND FUNDS
                              FROM CLOSED SCHOOLS NEEDS
                              IMPROVEMENT

IPOS does not routinely obtain the Perkins promissory notes or the cash on hand from closed
schools. We found for seven of nine schools in our sample that participated in the Federal Perkins
                                                                                     5
Loan program (Perkins) for which this condition existed, that approximately $535,000   in Perkins
Loan funds are at risk.

When a school ceases participation in the Perkins Loan program, it is required to inform ED of
how it will provide for the collection of any outstanding loans. When a school closes, the school
should assign/ its Perkins loans to ED. The school must terminate all billing and collection
activities, return any remaining cash on hand and assign the promissory notes to ED. The CMT is
responsible for arranging, coordinating, and monitoring the assignment of the Perkins promissory
notes to ED. If the closed school does not arrange to submit its promissory notes or remit cash
on hand, it is the CMT=s responsibility to obtain the portfolio and send the promissory notes to
ED=s contractor for continuing collection on the notes. The CMT is also required to obtain the
cash on hand from the school=s Perkins account.

Our sample of 41 schools included nine schools that participated in the Perkins program. We
found no record in the OCFO that the schools returned any cash on hand from their Perkins
account to ED. Although we can not be certain that there was any cash on hand in the Perkins
account for these schools, it is possible.

We also found that seven [78%] of the nine schools did not submit their Perkins promissory notes
to ED. Nor did IPOS obtain the promissory notes. Four of the fiveCMTs we visited had not
obtained any Perkins promissory notes in the past year and did not perform any type of follow up
to determine if the promissory notes were submitted to ED. If the promissory notes are not
submitted to ED, no collection on the loans can be performed and ED will not receive the
repayment of the loans. Every effort should be made to obtain the promissory notes and any

       5
              The amount of Perkins Loan funds received by the closed schools, according to ED=s
              Postsecondary Education Participants System and the amount of funds the school stated it
              would return to ED.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                            Page 10

remaining funds.

Obtaining the Perkins promissory notes and the cash on hand were not made a priority within
IPOS. IPOS set other priorities which took precedence over the closed school responsibilities.
New policies and procedures detailing theCMT=s responsibilities regarding Perkins should assist
in improving the process. Obtaining Perkins promissory notes and cash on hand needs to be
emphasized by IPOS, as it was in prior years. Perkins procedures issued in 1989, stated that:

     AWhenever regional staff become aware of a potential or actual school closure,immediate
    steps must be taken to ensure that ED=s interest is protected, especially when Perkins Loan
    funds are involved. The prompt handling of a closed schoolmust always be considered a
    high priority of the regional office@ [emphasis added].

This sense of priority needs to be reemphasized so thatED=s interest can be better protected.


RECOMMENDATION:

The Chief Operating Officer for SFA should require IPOS to:
   <      (1) Attempt to obtain the promissory notes for the seven closed schools in our sample
          and begin collection of approximately $535,000 associated with those loans.
          Determine all schools that closed and participated in Perkins, and assure the
          promissory notes were assigned to ED and potential cash on handwas recovered. If
          the promissory notes were not assigned to ED, obtain them;

    <       (2) Emphasize the importance of obtaining the Perkins promissory notes and cash on
            hand. A time limit should be established for the CMT to secure the notes and funds;
            and

    <       (3) Develop additional Perkins Loan policies and procedures, which should include a
            strategy that would assist the CMT in obtaining the Perkins promissory notes and cash
            on hand. This should be made a priority.



OSFA RESPONSE:

[It should be noted that the first sentence of recommendation 1 was not included in the draft report].

Recommendation 1 - We agree with this recommendation. The case teams will attempt to
obtain the Perkins promissory notes and cash on hand for schools that closed and did not assign
the notes to ED.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                 Page 11

Recommendation 2 - Performance Improvement and Procedures (PIP) Memorandum 98-04
instructed teams to collect Perkins notes. This has always been IPOS= policy, as has collection of
cash on hand. Although no time limit has been set, it has been stressed to the case teams that the
assignment process should be completed in a timely manner to minimize the period of time
accounts are not serviced.

Recommendation 3 - The strategies outlined in PIP Memorandum 98-04 are sufficient. These
procedures give guidance for each program the school participates in and also provide different
instructions by the type of closure (i.e., precipitous, orderly, etc.).


OIG RESPONSE:

Recommendation 2 - We are encouraged that the new closed school policies and procedures
instructs the CMTs to collect Perkins notes and even though this was always IPOS policy, our
review disclosed that the CMTs were not collecting the notes, therefore we believe that it is
important to continue to emphasize obtaining the promissory notes and cash on hand, as well as
establishing a time limit.

Recommendation 3 - We recognize that the new closed school policies and procedures includes
guidance relating to the Perkins Loan program, however, we believe additional procedures (a
strategy) are needed to ensure that theCMTs obtain the prom notes and cash on hand. We have
therefore amended our recommendation to express thatadditional procedures are needed.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                  Page 12



                          OTHER MATTERS

ED HAD OUTDATED WRITTEN CLOSED SCHOOL POLICIES
AND PROCEDURES
Currently, IPOS has uniform written closed school policies and procedures. We believe the
policies and procedures will assist in improvingIPOS=s closed school process although (as noted
below) additional procedures are needed. During our audit period [July 1996-July 1997], IPOS
did not have current written uniform closed school policies and procedures. TheCMTs were
using old, outdated policies and procedures from 1990 as guidance. These policies and
procedures were based upon the old organizational structure and did not fit the new IPOS
structure6, which includes the CMT and the State Liaison and Closed School Branch (SLCSB).
Each of the five CMTs reviewed developedtheir own closed school policies and procedures, and
were performing their closed school responsibility differently. As a result
                                                                          , three of CMTs were
not performing all aspects of the closed school process, in part because the responsibilities were
not properly assigned. We found that:

   (1) CMTs were not sure who was responsible for performing some tasks, for example issuing
       FADs, assessing liabilities, and monitoring submission of the close out audit report.These
       responsibilities were previously performed by the Audit Resolution Branch (ARB), which
       was no longer in place. In fact, issuingFADs and assessing liabilities were generally not
       being done.

   (2) The close out letters being sent to schools were not uniform. The version used by one
       CMT did not include some important information( i.e. the unaudited period, or a request
       to respond to the letter within 15 days) that the schools need to complete their close out
       responsibilities.

   (3) The Closed School Monthly Reports were not being regularly received and utilized by the
       CMTs. Three CMTs did not account for and send close out letters to all schools in their
       portfolio of schools that closed during our audit period. The Monthly Reports should be
       reconciled to the CMT=s list of closed schools for the month to assure that all of schools in
       the CMT=s portfolio that closed during the month are accounted for.


       6
              IPOS reorganization began in November 1996.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                Page 13

During our review, IPOS was developing written uniform policies and procedures. The policies
and procedures were finalized in late April 1998. We reviewed these policies and procedures and
believe they are adequate and will assist in improvingED=s closed school process. However,
during our review of the policies and procedures, we noted that several of the procedures
identified did not include all of the necessary procedures that we believe will assist in
strengthening ED=s closure process and did not definitively define a specific timeframe or event
for an action to be action or delineate all responsibilities.

We suggest the policies and procedures be amended as follows:

          a. Define the specific event\date that starts the beginning of the two week time period
             in which the CMT is required to send the close out letter to the school;

          b. Define a timeframe for whenthe CMT is required to secure the closedschool=s
             unobligated funds\excess cash;

          c. Delineate the office that is responsible for notifying the Office of General Counsel
             (OGC) if a school=s account can not be zeroed out and if the receivable is greater
             than $100,000; and

          d. Include a procedure to assure that the Closed School Monthly reports are provided
             to the responsible CMT member(s). The responsible team member should be
             required to review the Reports to assure that they have accounted for all the closed
             schools in their portfolio.


OSFA RESPONSE:

We agree with the suggested amendments to the policies and procedures.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                    Page 14

BACKGROUND
When an institution is approved to participate in the Student Financial Assistance Programs, Title
IV of the Higher Education Act of 1965, as amended, the school owner or a duly authorized
representative of the institution is required to sign a Program Participation Agreement (PPA) with
the U. S. Department of Education. Under the PPA, the school agrees to comply with the laws
and regulations governing the SFA programs, which includes the requirements relating to closure.
 When an institution closes or ceases to provide educational instruction, its participation in the
SFA programs ends on the date of school closure. The institution is required to immediately
notify the U. S. Department of Education of the closure, submit a letter of engagement to have an
independent audit of all SFA funds received since the last audit performed, and submit the close
out audit report to ED.

If a close out audit report is not received, it isED=s policy that the school refund all SFA funds
received from the date of theinstitution=s last required annual audit to the date of closure.

IPOS is responsible for ensuring that other ED offices are notified of institutional closures and
ensuring that institutions meet the requirements when they close. Within IPOS, the State Liaison
and Closed School Branch and the Case Management Teams carry out these responsibilities. The
CMTs are composed of both regional and Washington, D.C. staff. Each CMT is responsible for a
portfolio of schools for which they are responsible for all oversight functions, including closures.

When IPOS is notified of aninstitution=s closure, the SLCSB is responsible for verifying the
closure (with the appropriate State and\or Accrediting Agency); informing the various ED offices
of the closure, including the CMT, via the Closed School Notice; restricting aninstitution=s ability
to drawdown funds from ED by placing a stop payment on theinstitution=s account, preparing
and distributing the Closed School Monthly Report; and updating the database of closed schools.
The SLCSB also handles inquiries from students and outside agencies regarding the closures, and
assisting the closed school or state agency in arranging teach-out agreements.

The CMT is responsible for notifying the institution ofit=s responsibilities when it closes, via
issuing a close out letter. The CMT is also responsible for obtaining any SFA funds remaining in
an institution=s accounts and assuring that the Perkins promissory notes are remitted to ED, if
applicable. If the institution fails to submit a close out audit report, the CMT is responsible for
assessing a liability against the institution and notifying the OCFO of the assessment so that an
institutional receivable can be established. The liability amount is based on the amount of SFA
funds received by the institution for the period of time since theinstitution=s last SFA audit to the
date of closure.

The Data Management and Analysis Division\Document Receipt and Control Center (DRCC) is
responsible for receiving the close out audit reports and reviewing them for acceptability. The
reports are then forwarded to the responsible CMT for additional review and, if appropriate, to
assess any audit finding liability.
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                   Page 15


The Federal Perkins Loan Program

Perkins Loans (Perkins) are low-interest,long term loans made through institutional financial aid
offices to help needy undergraduate and graduate students paypostsecondary educational costs.
Each award year a school receives an allocation for the program from ED. This is the Federal
Capitol Contribution (FCC). The school must provide matching funds, from its own resources, of
one third of the FCC. This is the Institutional Capitol Contribution (ICC). A school that
participates in Perkins is required to establish and maintain a Perkins account and to deposit into
the account the FCC, the ICC, and any other funds collected in administering the program.
Eligible students must sign a promissory note in order to receive a Perkins loan. Thenote is held
by the school.

When a school ceases participation in the Perkins Loan program, it is required to inform ED of
how will provide for the collection of any outstanding loans. When a school closes it must
terminate all billing and collection activities, return any cash on hand maintained in the Perkins
account, and assign the promissory notes to ED.


AUDIT SCOPE AND METHODOLOGY

The objectives of our audit were to determine and assessED=s closed school policies and
procedures (excluding the teach-out responsibility), and to determine if the policies and
procedures were being implemented. The period audited was from July 1, 1996 to July 31, 1997.

To accomplish our audit objectives, we determined the closed school policies andprocedures and
reviewed the institutional files maintained by the SLCSB, CMT and the OCFO, and interviewed
officials from these offices. We also obtained relevant data such as funding, audit report
submission, liabilities & Perkins promissory note and cash on hand submission, from various ED
database systems.

For our review of the institutional files maintained by the SLCSB and the OCFO, we randomly
selected a sample of 25 closed schools from a universe of 299 schools (main campuses, branches
and additional locations) that were reported closed on the Closed School Monthly Reports
[prepared by the SLCSB] for the audit period.

We judgmentally selected fiveCMTs [see below] to review their closed school process. The
sample selected was based on geographic location and the volume of closed schools for the audit
period. From the five CMTs, we selected a sample of 41 closed schools [main campuses] to
review. The sample was based on the original random sample used for the audit work at the
SLCSB and the OCFO and augmented by additional selections in order to allow for sufficient
coverage of the regionalCMT=s universe of closed schools. The sample was obtained from the
FINAL REPORT - ED=s Closed School Process - ACN: 03-70010                                  Page 16

CMT=s universe of school closures during the audit period, as follows:

     REGIONAL LOCATION                   UNIVERSE                 SAMPLE SIZE



       Philadelphia, PA                      23                         5

          Dallas, TX                         24                         8

          Chicago, IL                        25                         8

      San Francisco, CA                      30                         9

          Atlanta, GA                        37                        11

We also selected a sample of 25 schools, from the schools reviewed at the regional offices, to
determine if a receivable was established for not submitting a close out audit report.

We conducted our fieldwork at the offices of IPOS and the OCFO in Washington, D.C. We also
conducted fieldwork at the five regional offices detailed above from August 1997 to April 1998.

We conducted the audit in accordance with government auditing standards appropriate to the
scope of review described above.


STATEMENT ON MANAGEMENT CONTROLS
As part of our review, we assessed the system of management controls, policies, procedures, and
practices applicable to ED=s closed school process. Our assessment was performed to determine
the level of control risk for determining the nature, timing, and extent of our substantive tests to
accomplish the audit objectives.

For the purposes of this report, we assessed the General Control Environment, which included
                                                                                          ,
personnel, delegation and communication ofauthorities\responsibilities, and policies and
procedures.

Because of inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed management control weaknesses. These weaknesses and
their effects are fully described in theAudit Results section of this report.



Note: Sitework performed at Philadelphia and Dallas was during the survey audit phase.
